Survey of INS's Anti-Smuggling Units-Table of Contents
Return
to the USDOJ/OIG Home Page
Survey of INS's Anti-Smuggling Units
Report Number I-2001-003
March 2001
TABLE OF CONTENTS
MEMORANDUM
EXECUTIVE SUMMARY
INTRODUCTION
Background
Inspection Objectives and Methodology
RESULTS OF THE INSPECTION
ASUs Perceive a lack of direction from headquarters regarding the anti-smuggling strategy
Many INS personnel see the need for a single chain of command for anti-smuggling units
Coordination problems occur between anti-smuggling units and other INS entities
Anti-smuggling units perceive variations in their effectiveness
Lack of resources affects anti-smuggling units' ability to perform their mission
CONCLUSION AND RECOMMENDATIONS
APPENDIX I	:  SUMMARY OF FY 1999 ASU G-23 DATA
APPENDIX II	: ANTI-SMUGGLING UNITS SURVEYED
APPENDIX III	: SURVEY OF ANTI-SMUGGLING UNITS
APPENDIX IV	:  RESULTS OF SURVEY OF ANTI-SMUGGLING UNITS
APPENDIX V	:  DIFFERENCES IN DISTRICT AND SECTOR
SURVEY RESPONSES
APPENDIX VI	:  IMMIGRATION AND NATURALIZATION SERVICE'S
RESPONSE TO THE DRAFT REPORT
APPENDIX VII	:  OFFICE OF THE INSPECTOR GENERAL'S ANALYSIS
OF MANAGEMENT'S RESPONSE